         U.S. Department of Energy
         Office of Inspector General
         Office of Audits & Inspections




Audit Report

Follow-up Audit of the Department's
Cyber Security Incident Management
Program




DOE/IG-0878                       December 2012
                                  Department of Energy
                                    Washington, DC 20585
                                       December 11, 2012


MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Follow-up Audit of the
                         Department's Cyber Security Incident Management Program"

INTRODUCTION AND OBJECTIVE

The Department of Energy operates numerous networks and systems to help accomplish its
strategic missions in the areas of energy, defense, science and the environment. The systems
are frequently subjected to sophisticated cyber attacks that could impact the Department's
ability to carry out its mission. According to recent testimony on cyber security threats
impacting the Nation, the Government Accountability Office noted that the number of cyber
security incidents reported by Federal agencies increased by nearly 680 percent from Fiscal
Years 2006 to 2011. These incidents included unauthorized access to systems, improper use of
computing resources and the installation of malicious software. Between October 2009 and
March 2012, the Department reported over 2,300 cyber security incidents.

The Federal Information Security Management Act of 2002 requires each agency to implement
procedures for detecting, reporting and responding to cyber security incidents, including
notifying and consulting with the Federal information security incident center, law enforcement
agencies and Inspectors General. To meet this requirement and counter the threat posed by
cyber attacks, the Department's Office of the Chief Information Officer, the National Nuclear
Security Administration and a number of field sites established organizations to provide
expertise in preventing, detecting, responding to and recovering from cyber security incidents.
In 2008, the Office of Inspector General reported in The Department's Cyber Security Incident
Management Program (DOE/IG-0787, January 2008) that the Department and NNSA
established and maintained a number of independent, at least partially duplicative, cyber security
incident management capabilities. Management concurred with the recommendations in our
report, and the Department and NNSA agreed to establish a joint incident management
operation. Because cyber incidents have the potential to severely hinder the Department's ability
to perform its mission and can require costly recovery efforts, we initiated this audit to
determine whether the Department had implemented an effective enterprise-wide cyber security
incident management program.

RESULTS OF AUDIT

Although certain actions had been taken in response to our prior report, we identified several
issues that limited the efficiency and effectiveness of the Department's cyber security incident
management program and adversely impacted the ability of law enforcement to investigate
incidents. In particular, we noted that the Department and NNSA:

   • Continued to operate independent, partially duplicative cyber security incident
     management capabilities at an annual cost of more than $30 million. In particular, at
     the time of our audit, the Department's Joint Cybersecurity Coordination Center (JC3)
     provided response and advisory services and maintained capabilities supporting
     computer forensics and assistance in investigating and preserving cyber evidence.
     However, we identified at least two other organizations that provided similar
     capabilities; and,

   • Cyber security incidents were not consistently identified and/or reported to JC3 or
     other organizations, as required. Specifically, sites had not always reported cyber
     incidents in a timely manner. Our audit found that 91 of 223 (41 percent)
     reported incidents at 7 sites had not been reported within established timeframes.
     For example, contrary to Department policy, 10 incidents involving a loss of
     personally identifiable information, potentially affecting 109 individuals, were
     reported up to 15 hours after discovery. Additionally, sites failed to provide all
     information necessary for JC3 to properly respond to incidents or report all
     incidents to the cognizant law enforcement agencies.

The issues identified were due, in part, to the lack of a unified, Department-wide cyber security
incident management strategy. For instance, despite our prior recommendations, the
Department and NNSA had been unable to establish an integrated strategy for incident
management. In addition, changes to the Department's Incident Management policy and
guidance may have adversely impacted overall incident management and response by law
enforcement and counterintelligence officials. Specifically, sites did not always report cyber
security incidents because updated policy and reporting instructions lacked detail and were
subject to interpretation. Also, we found that incident reporting to law enforcement was not
always timely or complete, which hindered investigations into events. In the absence of an
effective enterprise-wide cyber security incident management program, a decentralized and
fragmented approach has evolved that places the Department's information systems and
networks at increased risk. In addition, continued operation of independent capabilities could
hinder the Department's ability to maintain an effective incident management program and
result in unnecessary expenditures. For example, the fragmentation of cyber security incident
response centers could limit the exchange of needed information and delay decision-making in
response to security incidents.

Notably, programs and sites reviewed had taken steps related to preventing and/or detecting
cyber security incidents. In particular, sites utilized a variety of tools to detect and block threats.
In addition, sites were actively researching emerging threats and preparing defense postures
against future attacks. Also, in preliminary comments to our report, management stated that the
Department was in the process of building an enterprise-wide incident management strategy that
would include all Departmental elements. These are positive actions; however, to help improve
cyber-related communication and coordination, we made several recommendations that, if


                                                   2
implemented, should help the Department develop an enterprise-wide cyber security strategy
and enhance the security of its information systems.

MANAGEMENT REACTION

Management concurred with the report's recommendations and indicated that it had initiated
actions to address issues identified in our report. In separate comments, NNSA concurred with
the report's recommendations and provided intended corrective actions. Management's
comments are included in Appendix 3.

Attachment

cc:   Deputy Secretary
      Acting Under Secretary of Energy
      Acting Under Secretary for Science
      Administrator, National Nuclear Security Administration
      Chief Information Officer
      Chief of Staff
      Chief Health, Safety and Security Officer




                                               3
REPORT ON FOLLOW-UP AUDIT OF THE DEPARTMENT'S CYBER
SECURITY INCIDENT MANAGEMENT PROGRAM


TABLE OF
CONTENTS


Managing Cyber Security Incident Response

Details of Finding ............................................................................................................................1

Recommendations ............................................................................................................................7

Comments ........................................................................................................................................8


Appendices

1. Objective, Scope and Methodology ...........................................................................................9

2. Prior Reports ............................................................................................................................11

3. Management Comments ..........................................................................................................12
FOLLOW-UP AUDIT OF THE DEPARTMENT'S CYBER SECURITY
INCIDENT MANAGEMENT PROGRAM

MANAGING CYBER      The Department of Energy (Department or DOE) and the
SECURITY INCIDENT   National Nuclear Security Administration (NNSA) had not
RESPONSE            developed and deployed an effective and/or efficient enterprise-
                    wide cyber security incident management program. In particular,
                    we found that a number of independent, partially-duplicative cyber
                    security incident management capabilities continued to operate at
                    various locations. This issue echoes the findings in our 2008
                    report on The Department's Cyber Security Incident Management
                    Program (DOE/IG-0787, January 2008). In addition,
                    organizations had not always appropriately reported successful
                    incidents such as infection by malicious code and potential
                    disclosure of personally identifiable information (PII).

                            Cyber Security Incident Management Capabilities

                    The Department and NNSA continued to operate independent,
                    partially duplicative cyber security incident management
                    capabilities. In particular, at the time of our audit, the
                    Department's Joint Cybersecurity Coordination Center (JC3) –
                    managed by the Office of the Chief Information Officer (OCIO)
                    and reportedly funded at approximately $9.8 million in Fiscal Year
                    (FY) 2012 – provided monitoring, response and advisory services,
                    including capabilities for computer forensics and assistance in
                    investigating and preserving cyber evidence. Despite these
                    capabilities, NNSA and other programs continued to operate other
                    independent, at least partially duplicative, capabilities.
                    Specifically, we identified at least two additional entities spending
                    more than $20 million annually. For example:

                       •   NNSA's Information Assurance Response Center (IARC),
                           funded at approximately $15.5 million in FY 2012,
                           provided monitoring services for the Enterprise Secure
                           Network in addition to the unclassified networks at nearly
                           all NNSA sites. In addition, at the time of our fieldwork,
                           IARC monitored one non-NNSA site and was in the final
                           stages of implementing monitoring services for another;

                       •   NNSA's IARC and various sites also operated independent
                           cyber forensics capabilities. At two sites visited, personnel
                           stated that they developed their own capabilities because
                           they believed they could more quickly respond to cyber
                           incidents rather than waiting on assistance from the OCIO's
                           Cyber Forensics Laboratory (CFL); and,

                       •   The Cooperative Protection Program (CPP), a joint effort
                           by the OCIO and the Office of Counterintelligence, which

Page 1                                                               Details of Finding
                was funded at approximately $4.8 million according to
                program officials, maintained external network sensors to
                detect and deter hostile activity directed against the
                Department's information technology (IT) assets. The JC3
                analyzed the data collected by the CPP and communicated
                the results to Headquarters and field sites. IARC, however,
                duplicated a certain portion of this functionality by
                deploying network sensors at various sites to monitor
                network traffic. IARC officials stated they deployed their
                own sensors, both internal and external to the Department's
                networks, because the CPP infrastructure generally did not
                deploy sensors inside the network firewalls that could
                capture data related to insider threat. We noted, however,
                that IARC did not take advantage of CPP's external
                network sensors that were already in place, and, NNSA's
                Los Alamos National Laboratory (LANL) and Sandia
                National Laboratories – California (SNL-CA) – were
                utilizing CPP's sensors rather than IARC's. In addition,
                while most sites throughout the Department utilized the
                CPP program, participation was voluntary and potentially
                prevented the Department from acquiring a complex-wide
                perspective of network traffic and attack patterns. In
                preliminary comments to our report, management stated
                that it planned to assess the functionality of both CPP and
                IARC sensors in an effort to reduce redundancy.

         In addition to these multi-site capabilities, a number of field sites
         had developed site-specific cyber analysis capabilities. For
         example, the Pacific Northwest National Laboratory and LANL
         each maintained their own extensive cyber analysis capabilities.
         While we recognize that sites should maintain some level of cyber
         analysis capability, the duplication of effort across the complex
         may have resulted in additional funds being spent rather than
         utilizing existing resources. Although specific funding amounts
         for site-level capabilities were likely significant, costs could not be
         determined because the costs were not tracked by all the sites.
         This lack of information also limited the Department's ability to
         determine the return on investment of operating various
         capabilities.

         Due in part to our prior audit on The Department's Cyber Security
         Incident Management Program, a joint incident management
         operation – the DOE Cyber Incident Response Capability (DOE-
         CIRC) – became operational in October 2008. However, despite a
         Memorandum of Understanding between the Department and
         NNSA, and as noted in this report, disparate functions continued to
         exist. The Department's own assessment of its incident


Page 2                                                      Details of Finding
         management capabilities following a particularly severe incident in
         2011 identified, among other things, the fragmentation of the
         Department's and NNSA's cyber security incident response centers
         and duplicative and/or deficient channels of communications and
         notification. As a result, the Department's Information
         Management Governance Council (IMGC) and the Deputy
         Secretary approved the concept to expand JC3 – the successor
         organization to DOE-CIRC – to include NNSA and other cyber
         security functions across the Department. This action was
         intended to consolidate disparate functions and streamline
         information sharing.

         Although the JC3 strategy was to be implemented by the end of FY
         2011, that goal was not achieved due to a variety of issues. For
         instance, the Department and NNSA had not identified existing
         capabilities and how they would be integrated. Also, the
         governance structure of JC3, including roles and responsibilities,
         had not been determined. Additionally, a project management
         strategy, including a project plan, performance metrics and budget
         had not been developed. At the time our fieldwork concluded,
         efforts were still underway to fully implement JC3.

                                 Incident Reporting

         Cyber security incidents were not consistently identified and/or
         reported to JC3 or other organizations such as the Office of
         Inspector General (OIG). Specifically, incidents, either suspected
         or confirmed, were not always reported to JC3 in a timely manner
         even though JC3 guidelines established clear timeframes for
         reporting. In some cases, even when incidents were reported
         within the required timeframe, information was omitted from the
         report, or updated reports were not communicated to law
         enforcement organizations, hindering their ability to make
         informed decisions regarding the need for investigation. Finally,
         information related to reported incidents was not always provided
         to the proper law enforcement organizations as required by the
         Federal Information Security Management Act of 2002 (FISMA).
         In particular:

            •   Sites did not always report cyber security incidents to JC3
                in a timely manner. While reporting timeframes for
                incidents were clearly defined in the JC3 reporting
                procedures, we found most sites reviewed did not always
                comply with these timeframes. Specifically, our review of
                223 reported incidents at 7 sites revealed that 91 (41
                percent) had not been reported within the established
                timeframes. Although required to be reported within 45

Page 3                                                   Details of Finding
                             minutes, we noted 10 incidents involving PII potentially
                             affecting 109 individuals at 3 sites that, in some cases, had
                             been reported up to 15 hours beyond the prescribed
                             timeframe. We also found instances of malware infections
                             and system compromises that had not been reported in a
                             timely manner;

                         •   Incident reports did not always contain essential elements.
                             In particular, the reports reviewed frequently did not
                             contain information such as the date or time the incident
                             occurred, security category and/or the number of machines
                             affected. As a consequence, information provided to law
                             enforcement and the United States Computer Emergency
                             Readiness Team (US-CERT) was incomplete, and the
                             information necessary for analyzing the nature or origin of
                             various exploits was not always available for analysis; and,

                         •   Incident reporting to law enforcement was not timely or
                             complete, which hindered investigations into the events.
                             We found one incident involving a system compromise that
                             was reported to JC3 in October 2011 but was not reported
                             to law enforcement until December 2011. In another case,
                             the Savannah River Site reported an incident to JC3, but
                             JC3 did not accurately report the severity of the incident to
                             law enforcement officials, including the number of
                             machines affected. Therefore, law enforcement
                             organizations did not have the data necessary to make a
                             timely, informed decision as to whether an investigation
                             was warranted.

Management of Cyber   The issues identified were due, in part, to the lack of a coordinated
Security Incidents    and unified Department-wide cyber security incident management
                      strategy. In addition, changes to the Department's incident
                      management policy and guidance may have adversely impacted
                      overall incident management including response by law
                      enforcement and counterintelligence officials.

                                        Incident Management Strategy

                      Despite our prior recommendation, the Department and NNSA had
                      been unable to establish an integrated strategy for incident
                      management. The lack of a unified approach and the increasing
                      number of cyber security incidents led various Department
                      elements to develop their own, sometimes duplicative capabilities.
                      In addition, the Department's current approach was not consistent
                      with FISMA or National Institute of Standards and Technology
                      guidance that required agencies to develop a comprehensive plan

Page 4                                                                 Details of Finding
         for a well-coordinated and integrated solution for capturing,
         analyzing and disseminating aggregate cyber incident information
         across the complex. Specifically, Department management had not
         determined which cyber security incident capabilities best
         provided specific services or which, if any, could be consolidated
         with others to offer more effective overall response and reporting.
         For example, NNSA officials stated that they had already
         implemented a monitoring capability that was scalable and could
         be expanded Department-wide. Department officials commented,
         however, that they were skeptical of the ability to scale and expand
         this capability. Furthermore, Department officials had not
         developed the strategy and related documentation necessary for
         successful implementation of JC3, including important elements
         such as a memorandum of understanding, project execution plan
         and project budget.

                     Incident Management Policy and Guidance

         In response to our prior recommendation to develop and
         implement policy and guidance supporting the program, the OCIO
         published Department Manual 205.1-8, Cyber Security Incident
         Management Manual, which provided enterprise-wide
         requirements for incident identification, categorization,
         containment, reporting and mitigation. The Manual also
         established DOE-CIRC, the predecessor organization to JC3, as the
         Department's consolidated incident management entity. However,
         the Manual was cancelled in May 2011, just over 2 years after its
         approval, and replaced with Department Order 205.1B,
         Department of Energy Cyber Security Program, which provided
         more general guidance that could adversely impact overall incident
         management and response by the Department, law enforcement
         and counterintelligence officials. Our review of Department Order
         205.1B noted that it did not address many incident management
         practices required by the cancelled Manual, including:

            •   Outlining a structured process for disseminating
                information regarding sophisticated and coordinated cyber
                attacks;

            •   Establishing a structured process for a coordinated response
                to cyber attacks that impacted multiple program offices and
                sites;

            •   Establishing clearly defined purposes, roles or
                responsibilities for JC3 – the organization designated as the
                Department's central point of contact for cyber incident
                management;

Page 5                                                   Details of Finding
                           •   Providing roles or coordination requirements for other
                               existing capabilities such as the CFL, IARC, CPP and
                               various site-specific capabilities; and,

                           •   Specifically requiring JC3 to report certain cyber security
                               incidents to law enforcement authorities such as the OIG,
                               Federal Bureau of Investigation and investigative
                               authorities.

                       In addition, the reporting instructions developed by JC3 lacked
                       detail and were subject to interpretation as to the definition of a
                       reportable incident, which contributed to problems we identified
                       related to reporting. In particular, sites were inconsistent when
                       making determinations as to what constituted a reportable incident.
                       Specifically, we determined that 31 of 148 (21 percent) incidents
                       reviewed at 7 sites were not reported to JC3, as required. For
                       example, most sites did not report incidents that were identified by
                       internal monitoring devices, resulting in possible missed
                       opportunities to strengthen the overall security awareness of other
                       sites within the Department. Further, while the reporting
                       instructions stated that all instances of loss, stolen or missing IT
                       resources, including media that contained Sensitive Unclassified
                       Information (SUI) or national security information were to be
                       reported, some sites did not report items that were encrypted
                       because officials believed there was no risk of information loss. In
                       light of the issues identified, we believe that adopting a more
                       rigorous approach to incident management could result in
                       enhanced monitoring and response capabilities.

Information Systems    In the absence of an effective enterprise-wide cyber security
and Networks at Risk   incident management program, a decentralized and fragmented
                       approach evolved that placed the Department's information
                       systems and networks at increased risk of compromise. The
                       Department's current reporting and cyber incident management
                       structure also increases the risk that it will be unable to satisfy both
                       internal and external response and reporting requirements.

                       In addition, continued operation of independent capabilities could
                       hinder the Department's ability to report all unauthorized system
                       activity quickly and accurately. Furthermore, the Department's
                       ability to ensure that each of its components have established
                       processes for timely and accurate reporting to JC3 and its reporting
                       to US-CERT and, where appropriate, to law enforcement or
                       counterintelligence authorities, may be negatively impacted.




Page 6                                                                    Details of Finding
                  While current efforts to establish the JC3 as an integrated,
                  Department-wide capability are commendable, it is uncertain that
                  the desired outcomes will be achieved in a timely manner. During
                  our audit, plans for JC3 went through numerous iterations with
                  disagreements from programs and organizations regarding how the
                  capability should be structured and managed. While it appeared
                  that the IMGC was working towards an agreement, we continue to
                  stress the importance of a formal structured coordination of
                  processes and procedures that includes both Headquarters and field
                  sites, to enable the Department to respond quickly and effectively
                  to future sophisticated attacks.

RECOMMENDATIONS   To improve the Department's enterprise-wide cyber security
                  strategy and enhance the security of its information systems, we
                  recommend that the Under Secretary for Nuclear Security, the
                  Acting Under Secretary of Energy and the Acting Under Secretary
                  for Science, in coordination with the Department's and the
                  National Nuclear Security Administration's Chief Information
                  Officers:

                       1. Develop and implement an enterprise-wide cyber security
                          incident management strategy that:

                             a) Establishes clearly defined lines of authority,
                                responsibility and accountability among the
                                various capabilities; promotes a coordinated
                                approach for preventing, detecting, responding
                                to and recovering from cyber security events;
                                and, enforces prompt and complete notification
                                of reportable incidents to include relevant law
                                enforcement and counterintelligence officials;

                             b) Requires all Departmental elements, including
                                NNSA, to contribute to a unified and consistent
                                cyber security incident management program
                                that ensures timely and appropriate response
                                activities, and continuity of operations; and,

                             c) Leverages the use of existing capabilities and
                                resources and eliminates unnecessary
                                duplication, where appropriate.

                       2. Develop and implement policy to provide detailed
                          enterprise-wide requirements for identification,
                          categorization, containment, reporting and mitigation of
                          cyber security incidents.



Page 7                                                          Recommendations
MANAGEMENT         Department and NNSA management concurred with each of the
REACTION           report's recommendations and indicated that corrective actions
                   would be taken to address the issues identified. Department
                   management stated that it was in the process of transforming its
                   incident management program, including the design and
                   development of JC3. In addition, management noted that several
                   enterprise incident management improvements had been made
                   including the enhanced ability to share information across the
                   complex. NNSA management commented that it was responsible
                   for the development, operation and coordination of implementation
                   of an enterprise-wide cyber security incident management program
                   that will address the recommendations.

AUDITOR COMMENTS   Management's comments and planned corrective actions are
                   responsive to our recommendations. Management's comments are
                   included in their entirety in Appendix 3.




Page 8                                                                  Comments
Appendix 1

OBJECTIVE     To determine whether the Department of Energy (Department) had
              implemented an effective enterprise-wide cyber security incident
              management program.

SCOPE         We conducted the audit from November 2011 to December 2012,
              at Headquarters offices in Washington, DC; the Lawrence
              Livermore National Laboratory in Livermore, California;
              Lawrence Berkeley National Laboratory in Berkeley, California;
              Pacific Northwest National Laboratory in Richland, Washington;
              Richland Operations Office in Richland, Washington; Savannah
              River Site in Aiken, South Carolina; Los Alamos National
              Laboratory in Los Alamos, New Mexico; and, the National
              Nuclear Security Administration's Information Assurance
              Response Center facility in Las Vegas, Nevada.

METHODOLOGY   To accomplish the audit objective, we:

                   •   Reviewed the current status of the Department's
                       enterprise incident management capabilities;

                   •   Analyzed documentation and logs to determine whether
                       cyber incidents were reported to the Department of
                       Energy Cyber Incident Response Capability/Joint
                       Cybersecurity Coordination Center, the Information
                       Assurance Response Center and the United States
                       Computer Emergency Readiness Team in a timely
                       manner and within established Federal and Department
                       timeframes;

                   •   Determined whether training was adequate for system
                       administrators and employees to identify when an
                       incident was to be reported;

                   •   Reviewed Intrusion Detection System configurations to
                       ensure that the configuarations were fully enabled and all
                       traffic was being reviewed;

                   •   Reviewed a sample of incident report supporting
                       documentation to determine whether the documentation
                       was appropriately detailed and specific; and,

                   •   Evaluated the status of prior audit recommendations.

              We conducted this performance audit in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and


Page 9                                     Objective, Scope and Methodology
Appendix 1 (continued)

                    conclusions based on our audit objectives. We believe that the
                    evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our audit objectives. Accordingly, we
                    assessed significant internal controls and the Department's
                    implementation of the GPRA Modernization Act of 2010 and
                    determined that while certain timeframes for reporting incidents
                    had been established, it had not established performance measures
                    for cyber security incident management. Because our review was
                    limited, it would not have necessarily disclosed all internal control
                    deficiencies that may have existed at the time of our evaluation.
                    We did not rely on computer-processed data to satisfy our audit
                    objectives.

                    Department and NNSA management waived an exit conference.




Page 10                                          Objective, Scope and Methodology
Appendix 2

                                    PRIOR REPORTS

  • Evaluation Report on The Department's Unclassified Cyber Security Program – 2009
    (DOE/IG-0828, October 2009). The Department of Energy (Department) continued to
    make incremental improvements in its unclassified cyber security program including the
    centralized incident response organization designed to eliminate duplicative efforts
    throughout the Department. However, coordination between the Office of the Chief
    Information Officer and the National Nuclear Security Administration needed
    improvement. The problems identified occurred, at least in part, because certain cyber
    security roles and responsibilities had not been clearly delineated.

  • Evaluation Report on The Department's Unclassified Cyber Security Program – 2008
    (DOE/IG-0801, September 2008). While various sites had taken action to address
    weaknesses previously identified in the Fiscal Year 2007 evaluation, additional action is
    required to further enhance the Department's unclassified cyber security program and
    help reduce risks to its systems and data. Specifically, actions to address cyber incident
    response issues and to eliminate duplicative incident response capabilities had been
    initiated but were not yet complete. Individual program and cyber incident response
    organizations were not required to adhere to a coordinated/common approach for incident
    reporting. As a consequence, incident reports reaching the Department's Computer
    Incident Advisory Capability lacked essential elements for reporting to law enforcement
    and subsequent analysis for trending. Also, in the event of a multi-site cyber attack on
    the Department's networks and systems, this reporting environment made it difficult for
    the Department to develop a coordinated response.

  • Audit Report on The Department's Cyber Security Incident Management Program
    (DOE/IG-0787, January 2008). The report identified issues that could limit the efficiency
    and effectiveness of the Department's program and could adversely impact investigations
    by law enforcement or counterintelligence officials. Specifically, the audit identified that
    program elements and facility contractors had established and operated as many as eight
    independent cyber security intrusion and analysis organizations whose missions and
    functions we found to be, at least partially, duplicative and not well coordinated. Also,
    the Department had not adequately addressed issues through policy changes, even though
    it had identified and acknowledged weaknesses in its cyber security incident management
    and response program. Many of the issues observed were attributable to the lack of a
    unified, Department-wide cyber incident response strategy.




Page 11                                                                          Prior Reports
Appendix 3

             MANAGEMENT COMMENTS




Page 12                            Management Comments
Appendix 3 (continued)




Page 13                  Management Comments
Appendix 3 (continued)




Page 14                  Management Comments
Appendix 3 (continued)




Page 15                  Management Comments
Appendix 3 (continued)




Page 16                  Management Comments
Appendix 3 (continued)




Page 17                  Management Comments
                                                                    IG Report No. DOE/IG-0878

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1.   What additional background information about the selection, scheduling, scope, or
          procedures of the audit or inspection would have been helpful to the reader in
          understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report that would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
